HHS/OIG, Audit - "Audit of Yale-New Haven Hospital Organ Acquisition Costs Claimed For The Period October 1, 1997
Through September 30, 2001," (A-01-04-00503)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Yale-New Haven Hospital Organ Acquisition Costs Claimed For The Period October 1, 1997 Through September 30,
2001," (A-01-04-00503)
July 8, 2004
Complete Text of Report is available
in PDF format (552 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Yale-New Haven did not comply with Medicare laws, regulations, and guidelines in the preparation of
its Medicare cost report and received excess reimbursement for organ acquisition activities.  Specifically, Yale-New
Haven claimed costs associated with post-transplant activities. This occurred because Yale-New Haven did not have a system
to identify salaries related to post-transplant activities.  As a result, Yale-New Haven claimed, as organ acquisition
costs, $1,572,795 of salary costs that were not properly supported with current, accurate documentation that differentiated
between pre-transplant and post-transplant activities as required by Medicare.  This resulted in a Medicare
overpayment of $793,482.